National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001

                                    February 29, 2008

TO:            Chief Financial Officer

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Transmittal of the Final “Status of Fiscal Year 2006 Management Letter
               Findings and Recommendations” Letter, Prepared by Ernst & Young LLP,
               in Connection with the Audit of the National Aeronautics and Space
               Administration’s Fiscal Year 2007 Financial Statements (Report
               No. IG-08-011; Assignment No. A-07-008-01)


Under the Chief Financial Officers Act of 1990, NASA’s financial statements are to be
audited in accordance with generally accepted government auditing standards. The
Office of Inspector General selected the independent certified public accounting firm
Ernst & Young LLP (E&Y) to audit NASA’s financial statements in accordance with
“Government Auditing Standards” and Office of Management and Budget’s Bulletin
No. 07-04, “Audit Requirements for Federal Financial Statements.”

E&Y separately reported in its “Report on Internal Control,” dated November 13, 2007,
certain matters involving internal control and its operation that it considered to be
significant deficiencies and material weaknesses under standards established by the
American Institute of Certified Public Accountants. E&Y also followed up on matters
involving internal control (Enclosure) that were reported in the “Comments on Internal
Control and Other Matters” letter issued February 1, 2007, as part of the fiscal year (FY)
2006 audit.

In summary, E&Y’s enclosed letter either identified similar recurring issues, which were
communicated in the FY 2007 “Report on Internal Control,” or stated that E&Y did not
note the issue during the FY 2007 audit. Therefore, each recommendation made in the
FY 2006 “Comments on Internal Control and Other Matters” letter is now considered
closed.

During the FY 2007 audit, E&Y identified certain internal control issues that did not
meet the criteria to be reported in the FY 2007 “Report on Internal Control,” but rather
were communicated to NASA management throughout the audit process. Therefore,
there will not be a “Comments on Internal Control and Other Matters” letter issued as a
result of the FY 2007 audit.

E&Y is responsible for the enclosed report and the conclusions expressed therein.
Accordingly, we do not express an opinion on NASA’s financial statements, internal
controls over financial reporting, or compliance with certain laws and regulations.
We appreciate the courtesies extended during the testing and throughout the financial
statement audit. If you have any questions, or need additional information, please contact
me at 202-358-2572.


   signed
Evelyn R. Klemstine

Enclosure
                                                         Ernst & Young LLP            Phone: (202) 327-6000
                                                          1101 New York Avenue NW       Fax:     (202) 327-6200
                                                          Washington, DC 20005          www.ey.com




February 28, 2008



Mr. Mark Jenson
Office of Inspector General
National Aeronautics and Space Administration
Washington, DC 20546

Dear Mr. Jenson:

As part of our audit of the National Aeronautics and Space Administration’s (NASA) fiscal year
(FY) 2007 financial statements, we reviewed the status of the FY 2006 comments on internal
control and other matters included in a letter to NASA management dated February 1, 2007.
Based on our discussions with NASA management, as well as system documentation,
walkthroughs, and the results of audit procedures performed, the enclosed table outlines our
assessment of the current status of the management letter comments outlined in the FY 2006
Management Letter.

                                                                   Regards,


                                                                          signed

                                                                   Eleanor L. Crawford
                                                                   Executive Director

Enclosure




                               A Member Practice of Ernst & Young Global
                                               Ernst & Young LLP
!@
                                                                                             Page 2



Status of Fiscal Year 2006 Management Letter Findings and Recommendations

Issue Area            Summary Control Issue                               FY 2007 Status
Payroll               Ernst & Young noted the following:                  Ernst & Young noted
                           • Instances where sufficient                   significant progress in the
                              documentation was not available to          area of payroll. No issues
                              support certain deductions or required      were noted in our FY 2007
                              documentation could not be located          procedures.
                              within the Official Personnel Files;
                           • Instances where required authorizations
                              could not be located;
                           • Data elements that were not consistent
                              between documents of a single sample;
                           • Gross dollar payroll balances on the
                              treasury SF 224 and in the general ledger
                              that could not be substantiated for a
                              selected pay period;
                           • Payroll reconciliation differences that
                              were not reported properly to
                              headquarters through the monthly
                              periodic monitoring process; and
                           • Documentation to support the
                              monitoring of payroll funds availability
                              was not consistently available.

Cash Receipts         Ernst & Young noted the following:                  Ernst & Young did not note
                          • Refunds and unused reimbursable activity      these issues in FY 2007.
                              was not processed timely to the financial
                              management system;
                          • Transactions were not billed on a timely
                              basis;
                          • Certain receipts were not recorded on a
                              timely basis; and
                          • Certain receipts were recorded initially to
                              suspense and then to miscellaneous
                              receivable and revenue when specific
                              receivables could not be identified.




                             A Member Practice of Ernst & Young Global
                                                 Ernst & Young LLP
!@
                                                                                               Page 3



Issue Area              Summary Control Issue                              FY 2007 Status
Cash Disbursements      Ernst & Young noted the following:                 Ernst & Young noted
                             • Adjustments were not identified and         certain instances of
                                posted in a timely fashion;                untimely processing of
                             • Supporting documentation lacked             travel vouchers. This issue
                                appropriate approval;                      was included in the
                             • Certain documentation related to            Financial Systems,
                                employee travel was not readily            Analyses, and Oversight
                                available;                                 Material Weakness in the
                             • Travel vouchers were not processed in a     Report on Internal Control.
                                timely manner; and
                             • For one sample item, an invoice was         Ernst & Young did not note
                                paid after 30 days without payment of      the other FY 2006 issues in
                                interest.                                  FY 2007.

Procurement/Contracts   Ernst & Young noted the following:                 Ernst & Young did not
                            • Certain documentation was not readily        identify these issues in FY
                                available; and                             2007.
                            • Certain required documents lacked
                                appropriate approval.

Grants                  Ernst & Young noted the following:                 Ernst & Young identified
                             • Certain sample items had no-cost            one item at one center
                                extensions without use of authorized       whereby one document
                                modification form;                         could not be readily located
                             • Certain required documentation could        in a grant file. Additionally,
                                not be readily located; and                we noted untimely receipt
                             • Untimely receipt of the SF 272 for          of final SF 272 being the
                                expired grants.                            cause for many expired
                                                                           grants not being closed out
                                                                           timely. In FY 2007, this
                                                                           issue was included in the
                                                                           Financial Systems,
                                                                           Analyses, and Oversight
                                                                           Material Weakness in the
                                                                           Report on Internal Control.

                                                                           Ernst & Young did not note
                                                                           the other FY 2006 issue
                                                                           during the FY 2007 audit.




                               A Member Practice of Ernst & Young Global
                                               Ernst & Young LLP
!@
                                                                                                 Page 4



Issue Area            Summary Control Issue                                  FY 2007 Status
Accounts Receivable   Ernst & Young noted the following:                     Ernst & Young did not
                          • For 3 Centers, the total dollars per the         identify these issues in FY
                              Open Item Listing did not agree to the         2007.
                              corresponding accounts receivable aging
                              report;                                        Ernst & Young did note one
                          • IPAC transactions were not recorded              instance where a document
                              timely; and                                    could not be readily located
                          • Certain interest calculated by SAP lacked        to support the collection of a
                              review or could not be recalculated.           delinquent debt. We
                                                                             communicated that item to
                                                                             management through a
                                                                             formal internal
                                                                             communication.
Accounts Payable      Ernst & Young noted the following:                     Ernst & Young identified
                          • For 2 sample items, an invoice was paid          certain instances where
                              after 30 days without documentation to         travel vouchers were not
                              support the payment of interest;               submitted or recorded into
                          • We could not obtain documentation to             the financial management
                              support the correct costing or that the unit   system on a timely basis.
                              price was correct;                             We reported this weakness
                          • Certain travel transactions were not             within the Material
                              recorded timely within SAP; and                Weakness on Financial
                          • One center had erroneously posted an             Systems, Analyses, and
                              amount into SAP utilizing the incorrect        Oversight within the Report
                              business agency code.                          on Internal Control.

                                                                             Ernst & Young did not
                                                                             identify the remaining
                                                                             issues in FY 2007.
Undelivered Orders    Ernst & Young noted the following:                     Ernst & Young noted
                          • We noted inconsistencies between                 untimely deobligation of
                              various required documents, SAP, or            open items and included this
                              supporting worksheets;                         weakness in the Financial
                          • Certain documentation was not readily            Systems, Analyses, and
                              available; and                                 Oversight Material
                          • Certain items were not deobligated on a          Weakness in the Report on
                              timely basis.                                  Internal Control.

                                                                             Ernst & Young did not note
                                                                             the other FY 2006 issues in
                                                                             FY 2007.




                             A Member Practice of Ernst & Young Global
                                                    Ernst & Young LLP
!@
                                                                                                       Page 5



Issue Area                Summary Control Issue                                   FY 2007 Status
Property, Plant, and      Ernst & Young noted inconsistencies in the              Ernst & Young continued to
Equipment                 application of policies and procedures developed        identify these issues in FY
                          by the Office of the Chief Financial Officer            2007. These items were
                          (OCFO) and the lack of timely and clear                 consolidated into the
                          communication protocols between center                  material weakness on
                          personnel and OCFO.                                     property in the FY 2007
                                                                                  Report on Internal Control.

Environmental Liability   Ernst & Young noted weaknesses in NASA's                Ernst & Young continued to
                          ability to generate auditable environmental             identify these weaknesses in
                          liability estimates and to identify disclosure items;   FY 2007 and have reported
                          training of personnel; defined roles and                these issues within the
                          responsibilities of NASA's OCFO and                     material weakness on
                          Environmental Management Division (EMD)                 Financial Systems,
                          staff.                                                  Analysis, and Oversight
                                                                                  within the FY 2007 Report
                                                                                  on Internal Control.

Information Technology    Ernst & Young noted the following:                      Ernst & Young believed
                               • IEMP security, design and                        that corrections for these
                                  implementation needed improvement;              issues have been
                               • IEMP security and general information            substantially completed.
                                  technology controls need to be                  Segments related to
                                  strengthened;                                   segregation of duties and
                               • Oversight functions supporting IEMP              other access issues still exist
                                  security programs need improvement;             and have been combined in
                                  and                                             the FY 2007 Report on
                               • Segregation of duties needs                      Internal Control in the
                                  strengthening.                                  Financial Systems,
                                                                                  Analyses, and Oversight
                                                                                  Material Weakness.

                                                                                  Additionally, we have
                                                                                  issued a separate
                                                                                  management letter on our
                                                                                  audit procedures related to
                                                                                  NASA’s financial
                                                                                  management information
                                                                                  system.




                                  A Member Practice of Ernst & Young Global
